Audit of USAID’s Bureau for Management, Office of
Acquisition and Assistance’s Administration of Audits
Required Under Awards to Foreign and U.S. Recipients

Audit Report No. 1-598-05-002-P

December 3, 2004




             San Salvador, El Salvador
December 3, 2004

MEMORANDUM

FOR:           M/OAA Director, Michael F. Walsh

FROM:          Acting RIG/San Salvador, John Vernon “/s/“

SUBJECT:       Audit of USAID’s Bureau for Management, Office of Acquisition
               and Assistance’s Administration of Audits Required Under
               Awards     to   Foreign   and   U.S.    Recipients   (Report
               No. 1-598-05-002-P)

This memorandum is our final report on the subject audit. In finalizing this report,
we considered your comments on our draft report and have included your response
in Appendix II.

This report contains six recommendations for your action. Based on your
comments, management decisions have been reached for these recommendations.
Determination of final action will be made by the Bureau for Management’s Office
of Management Planning and Innovation (M/MPI/MIC).

Once again, thank you for the cooperation and courtesy extended to my staff
throughout the audit.




                                                                                  1
This page intentionally left blank.




                                      2
Table of   Summary of Results                                                    5
Contents

           Background                                                            5


           Audit Objective                                                       6


           Audit Findings                                                        6


           Did USAID’s Bureau for Management, Office of Acquisition and
           Assistance ensure that financial audits were performed for foreign
           and for U.S. recipients in accordance with USAID policies and the
           Office of Management and Budget Circular A-133?                       6


                  Inventory of Required Audits for Foreign Recipients
                  Was Not Maintained                                             7


                  Audit Reports Were Not Submitted                               9


           Evaluation of Management Comments                                    10


           Appendix I – Scope and Methodology                                   11


           Appendix II – Management Comments                                    13




                                                                                 3
This page intentionally left blank.




                                      4
Summary of   The Regional Inspector General/San Salvador conducted this audit to determine if
Results      USAID’s Bureau for Management, Office of Acquisition and Assistance ensured
             that financial audits were performed for foreign and for U.S. recipients in
             accordance with USAID policies and the Office of Management and Budget
             Circular A-133 (page 6).

             USAID’s Bureau for Management, Office of Acquisition and Assistance did not
             ensure that financial audits were performed for foreign and U.S. recipients in
             accordance with USAID policies and the Office of Management and Budget
             Circular A-133. The Office of Acquisition and Assistance did not maintain an
             inventory of required audits for foreign recipients and as a result was unable to
             ensure that financial audits were conducted. The Office of Acquisition and
             Assistance maintained an inventory of required audits for U.S. recipients in the
             Audit Tracking System. However, there were four audit reports that should have
             been received but were not and the information in the system was not accurate
             and updated to ensure that financial audits were conducted (page 6).

             We made six recommendations to address the items discussed in this report. We
             recommended that the Bureau for Management, Office of Acquisition and
             Assistance (1) review existing centrally-funded awards for fiscal years 2002 and
             2003 to ensure that an audit provision has been included in the award; (2)
             establish a procedure to ensure that the Contract or Agreement Officer notifies the
             Contract Audit Management Branch when a new foreign recipient receives a
             centrally-funded award; (3) establish a procedure to ensure that all future
             centrally-funded awards to foreign recipients contain an audit provision that
             explicitly states where the audit reports should be submitted; (4) develop and
             submit an audit inventory of all foreign recipients with centrally-funded awards to
             the Office of Inspector General; (5) establish a process for ensuring that all audit
             information is accurately recorded in the Audit Tracking System on a timely
             basis; and (6) ensure that audit reports from Helen Keller International, Inc.,
             International City County Management Associates, International Eye Foundation,
             and People to People Health Foundation Inc. are received and submitted to the
             Office of Inspector General for review (pages 8-10).

             The Bureau for Management, Office of Acquisition and Assistance agreed with
             the findings and recommendations presented in this report (page 13).



Background   USAID utilizes various acquisition and assistance instruments to implement its
             activities. Contracts, grants, cooperative agreements and purchase orders are
             some of the instruments which are negotiated and signed worldwide by USAID.
             These instruments provide for a variety of commodities and technical assistance
             to support objectives of the U.S. foreign assistance program managed by USAID.



                                                                                               5
            Financial audits of USAID’s grants and contracts should be conducted to assess
            whether the recipients (contractors, grantees, or host governments) of USAID’s
            funds have accounted for and used USAID funds as intended and have complied
            with applicable laws and regulations. These financial audits are generally
            performed by auditors outside of the Office of Inspector General. However, the
            audit reports should be submitted to the Office of Inspector General for review to
            ensure that the audits were conducted in accordance with Generally Accepted
            Government Auditing Standards and the Guidelines for Financial Audits
            Contracted by Foreign Recipients (Guidelines) established by the Office of
            Inspector General.
            This audit covered awards to foreign recipients with centrally-funded awards and
            to U.S. recipients for fiscal years 2002 and 2003 as of August 16, 2004.
            Centrally- funded awards are issued by the Bureau for Management, Office of
            Acquisition and Assistance.



Audit       As part of its fiscal year 2004 audit plan, the Regional Inspector General/San
Objective   Salvador performed this audit to answer the following question:

            •   Did USAID’s Bureau for Management, Office of Acquisition and Assistance
                ensure that financial audits were performed for foreign and for U.S. recipients
                in accordance with USAID policies and the Office of Management and
                Budget Circular A-133?

            Appendix I describes the audit's scope and methodology.


 Audit      Did USAID’s Bureau for Management, Office of Acquisition and Assistance
 Findings   ensure that financial audits were performed for foreign and for U.S.
            recipients in accordance with USAID policies and the Office of Management
            and Budget Circular A-133?

            USAID’s Bureau for Management, Office of Acquisition and Assistance did not
            ensure that financial audits were performed for foreign and for U.S. recipients in
            accordance with USAID policies and the Office of Management and Budget
            Circular A-133. The Office of Acquisition and Assistance did not maintain an
            inventory of required audits for foreign recipients. The Office of Acquisition and
            Assistance maintained an inventory of required audits for U.S. recipients in the
            Audit Tracking System. However, 4 out of a sample of 30 audit reports that
            should have been received were not. The information in the system was not
            accurate and was not updated to ensure that financial audits were conducted.




                                                                                             6
Inventory of Required Audits for
Foreign Recipients Was Not Maintained


 Summary: Automated Directive Systems (ADS) 591 required the Bureau for
 Management, Office of Acquisition and Assistance, Contract Audit
 Management Branch to maintain an inventory of foreign organizations with
 centrally-funded awards and to ensure that required audits were conducted.
 The Branch did not maintain such an inventory and therefore did not ensure
 that required audits were conducted. The inventory was not maintained
 because of uncertainty related to audit responsibilities. Without such an
 inventory, USAID would not be able to provide assurance that required audits
 were contracted, performed, and submitted to the OIG for review.


According to Automated Directive Systems (ADS) 591, “Financial Audits of
USAID Contractors, Grantees, and Host Government Entities,” foreign, nonprofit
organizations that expend $300,000 or more in federal awards during their fiscal
year must have annual audits conducted in accordance with the requirements
detailed in the Guidelines for Financial Audits Contracted by Foreign Recipients
(Guidelines) published by the Office of Inspector General (OIG).

ADS 591 also states that the Bureau for Management, Office of Acquisition and
Assistance, Contract Audit Management Branch (Branch) must maintain an
inventory of foreign organizations receiving centrally-funded awards issued by its
office and must ensure that required audits were conducted.

The OIG requested an inventory of all required audits of foreign contractors and
grantees with centrally-funded awards to ensure that all audits of foreign
recipients with centrally-funded awards were conducted and submitted to the OIG
in accordance with the Guidelines. The Branch maintained a file of various
foreign organizations with USAID grants, but the file was not complete and did
not contain information to indicate whether an audit was required for a given
recipient. The Branch was not able to provide information on how to obtain an
audit universe of centrally-funded awards. As a result, the Branch did not have a
tracking mechanism for the foreign recipients with centrally-funded awards to
ensure audits were conducted. An audit tracking system would allow the Branch
to identify all those recipients required to conduct and submit audit reports.

According to Branch personnel, audit responsibilities over foreign recipients with
centrally-funded awards in the past have not been clearly defined between the
Office of Acquisition and Assistance, the missions, and the recipients. Although
awards were issued in Washington, Branch officials thought that the cognizant
mission would be responsible for ensuring that audits were conducted. As a
result, the Branch was not aware of the need for maintaining an audit inventory
for the centrally-funded awards to foreign recipients issued by its office. Without
such an inventory, USAID would not be able to provide assurance that required
audits were contracted, performed, and submitted to the OIG for review.
                                                                                 7
Some recipients were also unclear of their audit responsibilities as some centrally-
funded awards to foreign recipients did not have audit provisions in the grant,
contract, or agreement which required the recipient to obtain an audit and submit
the audit reports to the appropriate USAID offices.

According to ADS 303.5, “Grants and Cooperative Agreements to Non-
Governmental Organizations,” awards to non-U.S. organizations shall include
provisions for which require audits to be conducted and reports to be submitted to
the appropriate USAID offices. Without the audit provision requiring an audit to
be performed and submitted to the proper USAID office, the recipients may have
been unaware of the audit requirement and would have been under no obligation
to obtain an audit or may have been unaware of where to submit the audit report.

       Recommendation No. 1: We recommend that USAID’s Bureau
       for Management, Office of Acquisition and Assistance review
       existing centrally-funded awards for foreign recipients for fiscal
       years 2002 and 2003 to ensure that an audit provision has been
       included in the award. If no provision has been included, a
       modification to the award should be prepared and sent to the
       recipient to include the appropriate provision.

       Recommendation No. 2: We recommend that USAID’s Bureau
       for Management, Office of Acquisition and Assistance establish a
       procedure to ensure that the Contract or Agreement Officer
       notifies the Contract Audit Management Branch when a new
       foreign recipient receives a centrally-funded award.

       Recommendation No. 3: We recommend that USAID’s Bureau
       for Management, Office of Acquisition and Assistance establish a
       procedure to ensure that all future centrally-funded awards to
       foreign recipients contain an audit provision that explicitly states
       where the audit reports should be submitted.

       Recommendation No. 4: We recommend that USAID’s
       Bureau for Management, Office of Acquisition and Assistance
       develop and submit an audit inventory of all foreign recipients
       with centrally-funded awards to the Office of Inspector
       General.




                                                                                  8
Audit Reports Were Not Submitted
    Summary: Automated Directive Systems 591 requires that the Bureau for
    Management, Office of Acquisition and Assistance, Contract Audit
    Management Branch be responsible for identifying and maintaining the audit
    inventory for U.S. organizations and ensuring required audits were conducted.
    From our testing of 30 U.S. organizations maintained in the Audit Tracking
    System (ATS), four audit reports had not been received from the recipient
    organizations. The Branch was not aware that these four audit reports had not
    been received. Furthermore, the out-dated and inaccurate information
    maintained for recipient organizations in the audit tracking system has caused
    the Branch to not use the system as an audit tracking tool. Without an accurate
    and current audit tracking system, USAID could not provide assurance that
    required audit reports were received.


The Office of Management and Budget Circular A-133 states that non-federal
entities that expend $300,000 in federal awards ($500,000 for fiscal years ending
after December 31, 2003) or more in a year shall have a single or program-
specific audit conducted for that year in accordance with the provisions of the
circular. Also, in accordance with the Automated Directive Systems 591, the
Bureau for Management, Office of Acquisition and Assistance, Contract Audit
Management Branch (Branch) is responsible for identifying and maintaining the
audit inventory for U.S. organizations and ensuring required audits were
conducted.

USAID identified and maintained the audit inventory for U.S. organizations using
the Audit Tracking System (ATS). We randomly1 selected 30 organizations from
the ATS to determine if the Branch was properly monitoring and tracking audit
reports for fiscal years 2002 and 2003. Of the 30 organizations selected, four
organizations had not submitted audit reports to the Branch for fiscal years 2002
and/or 2003. The Branch was not aware that these four audit reports had not been
received. Furthermore, the out-dated and inaccurate information maintained for
recipient organizations in the audit tracking system has caused the Branch to not
use the system as an audit tracking tool. Inputting of audit information had not
been a priority for the Branch. For example, nine of the 30 organizations selected
for testing contained contract close-out dates that were not consistent with the
New Management System, Assistance and Acquisition module. According to
Branch personnel, the New Management System contained the most current
contract information. The information in the ATS should be accurate and current
to properly monitor and track audits to ensure that all required audit reports were
received. Without an accurate and current audit tracking system, USAID could
not provide assurance that required audits reports were received. Furthermore,
the ATS could not be used as a reliable source for providing relevant information



1
    The sample selected was non-statistical.

                                                                                  9
                to properly monitor and track audits to ensure that all required audit reports were
                received.

                       Recommendation No. 5: We recommend that USAID’s
                       Bureau for Management, Office of Acquisition and Assistance,
                       Contract Audit Management Branch establish a process for
                       ensuring that all audit information is accurately recorded in
                       the Audit Tracking System on a timely basis.

                       Recommendation No. 6: We recommend that USAID’s
                       Bureau for Management, Office of Acquisition and Assistance,
                       Contract Audit Management Branch ensure that audit reports
                       from Helen Keller International, Inc., International City
                       County     Management      Associates,   International   Eye
                       Foundation, and People to People Health Foundation Inc. are
                       received and submitted to the Office of Inspector General for
                       review.



Evaluation of   The Bureau for Management, Office of Acquisition and Assistance agreed with
Management      the findings and recommendations presented in this report. Accordingly,
Comments        management decisions were made for the recommendations. The Bureau for
                Management, Office of Acquisition’s comments are included in their entirety in
                Appendix II.

                The recommendations have been renumbered in the final report. Also, based on
                information that was available after the draft report was issued, the audit finding
                related to the Audit Tracking System has been rephrased and a sixth
                recommendation has been included in the final report.             The Bureau for
                Management, Office of Acquisition and Assistance agreed with the new
                recommendation.

                Determination of final action will be made by the Bureau for Management’s Office
                of Management Planning and Innovation (M/MPI/MIC).




                                                                                                10
                                                                                      Appendix I


Scope and     Scope
Methodology
              We audited the USAID’s Bureau for Management, Office of Acquisition and
              Assistance’s administration of audits required under awards to foreign and to U.S.
              recipients in accordance with generally accepted government auditing standards.
              The audit was conducted at USAID/Washington from March 22, 2004 to April 2,
              2004 and from April 28, 2004 to April 30, 2004.

              The audit focused on whether the Bureau for Management, Office of Acquisition
              and Assistance ensured that audits were conducted for foreign and for U.S.
              recipients in accordance with USAID policies and the Office of Management and
              Budget Circular A-133.

              In conducting our audit, we assessed the effectiveness of the Bureau for
              Management, Office of Acquisition and Assistance’s management controls
              designed to ensure that all required audits of U.S. recipients were conducted.
              Management controls included maintaining a list of all required audits and
              forwarding audit reports to the OIG. We did not assess the management controls
              designed to ensure that all required audits of foreign recipients with centrally-
              funded awards were conducted.

              We randomly2 selected 30 U.S. organizations from the Audit Tracking System to
              determine if audit reports had been received for fiscal years 2002 and 2003.

              The audit covered all required audit reports for fiscal years 2002 and 2003 as of
              August 16, 2004.

              Our audit did not include reviewing the quality of the audit reports.

              Methodology

              To answer the audit objective, we obtained information regarding the Bureau’s
              organization, staffing, and responsibilities. We interviewed the Branch Chief and
              staff of the Contract Audit Management Branch. We reviewed the audit tracking
              system report of all U.S. organizations. Using the selected sample of 30 U.S.
              organizations, we reviewed the audit reports to determine that the reports were
              received by the Contract Audit Management Branch.

              An unqualified opinion would be issued if all audits required were conducted and
              submitted to the Office of Inspector General of all fiscal year 2002 and fiscal year
              2003 recipients selected.



              2
                  The sample selected was non-statistical.

                                                                                               11
A qualified opinion would be issued if 95 percent to 99 percent of the audits
required were conducted and submitted to the Office of Inspector General of all
fiscal year 2002 and fiscal year 2003 recipients selected.

An adverse opinion would be issued if less than 95 percent of the audits required
were conducted and submitted to the Office of Inspector General of all fiscal year
2002 and fiscal year 2003 recipients selected.




                                                                               12
                                                                                       Appendix II


Management
Comments
                                                                                     October 29, 2004


    To:            RIG/San Salvador, Steven H. Bernstein

    From:          M/OAA/Director, Michael F. Walsh

    Subject:       Draft Audit of USAID’s Bureau for Management, Office of Acquisition and
                   Assistance’s Administration of Audits Required Under Awards to Foreign and U.S.
                   Recipients (Report No. 1-598-05-00X-P)

    Thank you for the opportunity to comment on the referenced DRAFT report. The Office of
    Acquisition and Assistance (M/OAA) offers the following in response to your DRAFT
    recommendations.

    Recommendation No. 1: We recommend that the Bureau for Management, Office of
    Acquisition and Assistance perform the following:

    1a.     Review existing centrally-funded awards for foreign recipients for fiscal years 2002
    and 2003 to ensure that an audit provision has been included in the award. If no provision
    has been included, a modification to the award should be prepared and sent to the recipient
    to include the appropriate provision.

    M/OAA concurs with Recommendation No. 1a. M/OAA proposes to undertake a systematic
    review of these awards until we have determined that the required provisions are included in all
    awards. A file review of all centrally-funded awards will be conducted by representatives of the
    OAA Evaluation Division for FYs 2002 and 2003. Should this audit uncover procurement
    instruments that lack the required provisions, OAA’s Cognizant Contracting Officers will be
    required to modify their awards accordingly. In the future, policy guidance will be issued
    regularly to remind contracting staff of this requirement. We will also take the necessary steps to
    ensure that these requirements are reiterated in our CO training classes.

    1b.   Establish a procedure to ensure that the Contract of Agreement Officer notifies the
    Contract Audit Management Branch when a new foreign recipient receives a centrally-
    funded award.

    M/OAA concurs with Recommendation No. 1b. M/OAA proposes to coordinate with the Bureau
    for Management, Office of Management, Planning and Innovation (MPI) to develop and audit
    management policy that will require all Contract/Agreement Officers to include OAA/CAS in their
    normal distribution list announcing new awards. This will ensure timely updates and accurate
    tracking of centrally-funded awards. Additionally, M/OAA will issue a policy statement in the form

                                                                                                    13
of an Acquisition and Assistance Policy Directive (AAPD) no later than March 31, 2005 to
reinforce these requirements.

1c.    Establish a procedure to ensure that all future centrally-funded awards to foreign
recipients contain an audit provision that explicitly states where the audit reports should

M/OAA concurs with Recommendation No. 1c. M/OAA proposes that the policy directive
established above (Recommendation No. 1b.) will include procedures for Contract/Agreement
Officers to incorporate audit provisions in the award instrument and instructions to the recipient on
where the audit reports should be submitted as detailed in the Guidelines for Financial Audits
Contracted by Foreign Recipients.

1d.   Develop and submit and audit inventory of all foreign recipients with centrally-
funded awards to the Office of Inspector General.

M/OAA concurs with Recommendation No. 1d. M/OAA is currently reviewing its Audit Tracking
System (ATS) to determine the modifications, if any, that can be made to better track the universe
of foreign organizations receiving centrally-funded awards as required by ADS 591.3.2.1. Based on
earlier recommendations, we will have an up-to-date audit trail that can be provided routinely to the
OIG. In the interim, we will provide an inventory of those awards that are in the current database to
the OIG in order for us to establish a baseline from which to begin. Over the next six months, we
will review our procedures and beta-test the newly updated database to ensure improvements in our
reporting. We will continue to collaborate with MPI and M/OAA’s Policy Division to ensure that
we are on track.

Recommendation No. 2: We recommend that USAID’s Bureau for Management, Office of
Acquisition and Assistance, Contract Audit Management Branch establish a process for
ensuring that all audit information is accurately recorded in the Audit Tracking System on
a timely basis.

M/OAA concurs with Recommendation No. 2. M/OAA/CAS acknowledges that a lack of adequate
resources continues to be a major factor in this finding. M/OAA has begun to take steps to remedy
its personnel shortage and recently awarded new Manpower contracts to supplement its staff within
M/OAA. As a result, M/OAA/CAS will be provided with additional staff support. These steps
should begin to relieve the data-entry backlog and improvement should be noticeable by March 31,
2005.




                                                                                                  14
